NO. 20-273
In the

Supreme Court of the United States
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
V.

ROVI GUIDES, INC.
AND UNITED STATES OF AMERICA,

Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(iii), the Reply Brief for the
Petitioner contains 1,382 words, excluding the parts of the petition that are exempted
by Supreme Court Rule.
Dated: October 20, 2020

Respectfully submitted,

Arn Jacobsen

